January 29, 2021
VIA ELECTRONIC FILING
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re: Khan et al. v. Merit Medical Systems, Inc. et al. (No. 20-773)
Request for 28-day Extension of Time
Dear Mr. Harris:
I am counsel of record for Merit Medical Systems, Inc. and 109 other related
respondents in the above-referenced matter, as set forth in the waiver filed with the
Court on December 8, 2020. We are in receipt of your January 26 letter requesting a
response to the petition for a writ of certiorari by February 25, 2021.
Pursuant to Rule 30.4, we respectfully request that the time for filing the
requested response be extended by 28 days, up to and including March 25, 2021. I
and my colleague in this case, Mr. Brent Lorimer, have a number of professional
obligations in other matters during the next few weeks, including briefing and
discovery deadlines in Bytedance, Ltd. et al. v. Triller, Inc., IPR2021-00099 (Pat. Tr.
& App. Bd.), Triller, Inc. v. Bytedance Ltd. et al., 6:20-CV-693 (W.D. Tex.), Bytedance
Inc. et al. v. Triller, Inc., 3:20-CV-7572 (N.D. Cal.), and Zeroville Sales & Collections,
Inc. v. Nagravision S.A. (Hon. Wayne D. Brazil, Arbitrator). The requested extension
of time is necessary to allow suitable time for us to prepare the requested response,
given the press of our other professional obligations. I have corresponded with
counsel for the Petitioner, Mr. Herstoff, who does not object to the requested
extension of time. Accordingly, we respectfully request that the time for filing the
requested response be extended by 28 days, up to and including March 25, 2021.
Respectfully submitted,
/s/ David R. Todd
Counsel of Record for
Merit Medical Systems, Inc. et al.
cc: Jonathan Herstoff

